                           U.S. Department of Agriculture
                              Office of Inspector General




   Procurement Oversight Audit of Southeast
 Poultry Research Laboratory, Replacement of
Critical Mechanical Systems Serving Buildings 1,
  4, and 34; Contract Awarded by Agricultural
 Research Service to Peachtree Mechanical, Inc.




                                    Audit Report 02703-04-HQ
                                                    July 2011
                         United States Department of Agriculture
                                Office of Inspector General
                                 Washington, D.C. 20250




DATE:          July 1, 2011

AUDIT
NUMBER:        02703-04-HQ

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Michelle Garner
               Acting Director
               Financial Management Division

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit


SUBJECT:       Procurement Oversight Audit of Southeast Poultry Research Laboratory,
               Replacement of Critical Mechanical Systems Serving Buildings 1, 4, and 34;
               Contract Awarded by Agricultural Research Service to Peachtree Mechanical,
               Inc.


This report presents the results of the Procurement Oversight Audit of Southeast Poultry
Research Laboratory, Replacement of Critical Mechanical Systems Serving Buildings 1, 4,
and 34; Contract awarded by Agricultural Research Service to Peachtree Mechanical, Inc.
Your response to the official draft is included in its entirety as an exhibit to this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency
and accountability requirements of the Recovery Act are met and to ensure that Agricultural
Research Service’s Recovery Act procurement activities are performed in accordance with
Federal Acquisition Regulations, Office of Management and Budget guidance, and Recovery
Act requirements. During our oversight of the contract, we reviewed Regis & Associates,
PC’s report and related documentation. Our review, as differentiated from an audit, in
accordance with Government Auditing Standards (issued by the Comptroller General of the
United States), disclosed no instances where Regis & Associates, PC’s audit did not comply,
in all material respects, with Government Auditing Standards.
Ed Knipling                                                                               2


Based on your response, we are able to reach management decision on Recommendation 1,
the only recommendation contained in this report. There were several findings noted in this
report without associated recommendations because the same issues were previously
reported. Therefore, no further response is necessary. Please follow your agency’s internal
procedures in forwarding documentation for final actions to the Office of the Chief Financial
Officer.

In accordance with Departmental Regulation 1720-1, final action must be taken within 1 year
of each management decision to prevent being listed in the Department’s annual Performance
and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
DATE:                     June 28, 2011

REPLY TO
ATTN OF:                  02703-04-HQ

TO:                       Jane A. Bannon
                          Audit Director
                          IT Audit Operations and Departmental Management
                          Department of Agriculture, Office of Inspector General

FROM:                     Regis & Associates, PC /s/

SUBJECT:         Procurement Oversight Audit of Southeast Poultry Research Laboratory,
                 Replacement of Critical Mechanical Systems Serving Buildings 1, 4, and 34;
                 Contract Awarded by Agricultural Research Service to Peachtree Mechanical,
                 Inc.

The American Recovery and Reinvestment Act of 2009 (the Recovery Act) provided the U.S.
Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
reduce the backlog of facilities critical deferred maintenance projects. On October 8, 2009, ARS
awarded a sole-source, negotiated, firm fixed-price construction contract under the 8(a) Business
Development Program 1 for $2,224,341 to Peachtree Mechanical, Inc., to replace the critical
mechanical, electrical, and plumbing systems serving buildings 1, 4, and 34 at the Southeast
Poultry Research Laboratory, located in Athens, Georgia. In addition to the initial contract
award, subsequent contract modifications were made that totaled $213,308, and increased the
contract amount to $2,437,649. The contract was about 99 percent completed, and the payments
to the contractor totaled $2,402,300, as of March 31, 2011. ARS’ Facilities Division in
Beltsville performed the procurement activities and contract management functions including
contract award, contractor payment approval, and monitoring the contractor’s Recovery Act
reporting. ARS’ Financial Management Division (FMD) reported agency Recovery Act fund
statistics on Recovery.gov through SharePoint. 2

In enacting the law, Congress emphasized the need for the Recovery Act to provide for
unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
where tax dollars are being spent. To accomplish this objective, the Office of Management and
Budget (OMB) issued various implementing guidelines that require Federal agencies receiving
Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
weekly updates, monthly financial status reports, award transaction data feeds, and an agency
Recovery Act plan.

The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
1
  The Small Business Administration 8(a) Business Development Program was created to assist eligible small
disadvantaged business owners compete in the American economy through business development.
2
  SharePoint is an electronic database for USDA’s Recovery Act data collection.


                                                        1
OMB guidance states that OIGs will perform audits and inspections of their respective agencies’
processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
safeguards exist for ensuring funds are used for their intended purposes.

To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC, to assist it in ensuring that ARS’ Recovery
Act procurement activities are performed in accordance with Federal Acquisition Regulations
(FAR), OMB guidance, and Recovery Act requirements. This audit was performed in
accordance with generally accepted government auditing standards, and standards established
by the American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
organizational documents relating to management controls, policies and procedures for the
procurement and contracting functions, financial management system, and other processes that
would ensure compliance with the Recovery Act.

The scope of this audit included a review of the justification for a sole-source acquisition;
processes for preparing and issuing the solicitation, contractor selection, contract price
determination, contract award, performance monitoring, and invoice processing and payments to
determine whether ARS followed departmental and agency policies and procedures, FAR, and
Recovery Act requirements. We performed procedures, as necessary, to determine whether the
procurement was based on fair and reasonable price estimates, that the contract was awarded to a
contractor with appropriate qualifications, and that processes were in place to ensure that the
contractor provided services/products in accordance with contract terms. We found ARS’
contracting staff, including the contracting officer, contracting specialist, and contracting
officer’s technical representative, were experienced and qualified to award and monitor the
contract and no issues were noted in these areas that would warrant reporting.

However, we identified four issues that were previously reported to ARS. We noted that ARS’
Facilities Division did not document the acquisition planning performed, request a legal review
of the solicitation, or properly publicize the rationale for awarding the contract on a sole-source,
non-competitive basis.3 In addition, though ARS developed new Recovery Act recipient
reporting procedures, we found an instance of inaccurate recipient reporting. 4 During the course
of our review of this contract, we also noted that ARS was assessed a late payment fee due to a
prompt payment issue.

Finding 1: ARS’ Acquisition Planning Process Should be Formalized

During our audit, we reviewed Peachtree Mechanical, Inc.’s contract file to assess the existence
and adequacy of acquisition planning for the Southeast Poultry Research Laboratory repair
project. We noted there was no formal, structured, and clearly communicated acquisition

3
    These issues were previously reported to ARS in audit report 02703-03-HQ.
4
    This issue was previously reported to ARS in audit reports 02703-01-HQ and 02703-02-HQ.


                                                         2
planning process developed, which includes the establishment of thresholds for when a formal
acquisition plan should be prepared. We also noted that the contract file contained incomplete
acquisition planning documentation. Specifically, there was no evidence of any acquisition
planning meetings being conducted prior to the release of the solicitation depicting how the
overall approach for awarding the procurement was established.

FAR part 7, Acquisition Planning, requires agencies to perform acquisition planning in order to
ensure that the government meets its needs in the most effective, economical, and timely manner.
FAR 7.103, Agency Head Responsibilities, states that the agency head or designee shall
prescribe procedures for “establishing criteria and thresholds at which increasingly greater detail
and formality in the planning process is required as the acquisition becomes more complex and
costly, specifying those cases in which a written plan shall be prepared.” Additionally,
Agriculture’s Acquisition Regulation (AGAR) 5 states that the Head of Contracting Activity6
(HCA) shall develop procedures to comply with FAR part 7.103.

The conditions noted above resulted because acquisition planning guidance was not provided to,
or implemented in, ARS’ procurement function. Specifically, it was noted that ARS’ Head of
Contracting Activity had not issued procedural guidance on how to implement FAR part 7,
Acquisition Planning; as mandated by AGAR 48 CFR Chapter 4, part 407(1)(103). ARS' HCA
stated that ARS HCA's office had not issued the required procedure because he felt that the
guidance first needs to be developed at the departmental (USDA) level. Based on departmental
policy guidance, ARS' HCA would issue acquisition planning procedures for use in ARS.
However, we determined that ARS’ HCA should have issued acquisition planning procedural
guidance to ARS Facilities Division, with or without a departmental (USDA) policy guidance.
AGAR part 402.101 defines the HCA who has the responsibility for issuing the acquisition
planning guidance; it states that, “the Head of Contracting Activity means the official who has
overall responsibility for the contracting activity (i.e., Chief, Forest Service; Administrator,
Agricultural Research Service; etc), or the individual designated by such an official to carry out
the functions of the HCA.”

As a result of not utilizing a formal, structured, and clearly communicated acquisition planning
process, which includes the establishment of thresholds defining when a formal acquisition plan
should be prepared, there is an increased risk that ARS may not meet its procurement needs in
the most effective, economical, and timely manner. There is also the risk that decisions and
actions may not reflect sound business judgment that protects the government’s interests.
Furthermore, there is the risk that in the absence of a structured and clearly communicated
acquisition planning process, appropriate agency oversight may not occur at critical decision
points, such as approval of decisions taken at the initial planning meeting, major changes to the
acquisition strategy during the procurement process, and the development of government
estimates.
5
  48 CFR Chapter 4, part 407 (1) (103).
6
  AGAR part 402.101 states that the Head of Contracting Activity means the official who has overall responsibility
for managing the contracting activity (i.e. Chief, Forest Service; Administrator, Agricultural Research Service; etc.)
or the individual designated by such an official to carry out the functions of the HCA.



                                                           3
We are not making any new recommendations at this time because this issue was noted in a
previous contract review. We recommended that ARS’ Head of Contracting Activity issue
procedural guidance regarding acquisition planning and ARS’ Facilities Division should
implement the procedural guidance issued by ARS’ Head of Contracting Activity.

Finding 2: Legal Review Procedures for Contract Actions Were Not Performed

USDA’s Departmental Regulation, DR 5000-4, Legal Review of Contractual Actions, establishes
procedures for determining when to request a legal review of contractual actions. The regulation
requires the legal review of solicitations for negotiated contracts that are expected to exceed
$500,000. Also, the Internal Control Plan 7 for Research, Education, and Economics (REE)8
Acquisition Program states that legal reviews are required for all actions identified in DR 5000-4
to ensure legal sufficiency of the solicitation and contract award documents.

The Southeast Poultry Research Laboratory Repairs project was a sole source, negotiated
contract, awarded at an initial contract price of $2,224,341, and DR 5000-4 states that a legal
review should have been performed. ARS’ Facilities Division did not request a legal review of
the solicitation. We noted that ARS had sent a solicitation boilerplate, which did not contain
contract specific data, to the Office of General Counsel (OGC) for review in February 2009, and
OGC did not send any review comments or recommendations. ARS concluded that a legal
review was not necessary because no review comments were received from OGC regarding the
boilerplate. However, we determined even if a legal review was done on the boilerplate
solicitation, ARS should have had a legal review of the solicitation, which contained the contract
specific data. Also, ARS should follow up with OGC if no response is received to ensure there
are no legal issues.

ARS’ Facilities Division Contracting Officer stated that prior to awarding the contract, a
determination was made that a legal review was not necessary. The Contracting Officer further
stated that the determination not to seek legal review was based on the solicitation document’s
format and language presented to the OGC in February 2009. No response was received from
OGC. Also, the Contracting Officer believes that the contract requirements for this project were
typical of the construction work repetitively procured by the Facilities Contracts Branch, and that
there were no complex legal issues to be considered.

As a result of not performing a legal review of the solicitation, ARS could be exposed to
unintended legal consequences related to the contract. Also, ARS is not in compliance with the
Department’s regulation and its own guidance, which is designed to protect it from legal risks.




7
  The Internal Control Plan specifies procedures that are to be followed at each step of the procurement process,
assuring that procurement policy objectives are being met and that quality standards are being upheld.
8
  REE is the USDA mission area that provides oversight and guidance to its agencies which include ARS, the
National Institute of Food and Agriculture, the Economic Research Service, and the National Agricultural Statistics
Service.


                                                          4
We are not making a recommendation at this time, because this issue was noted in a previous
contract review. We recommended that ARS request and obtain a legal review of solicitations,
with project specific data, for negotiated contracts that are expected to exceed $500,000.

Finding 3: The Rationale for Awarding the Contract on a Sole Source Basis Was Not
Included in the Award Notice

ARS publicized the contract post-award notice on FedBizOpps.gov, indicating that a contract
funded by the Recovery Act was awarded to an 8(a) Business Development Program contractor,
on a sole-source basis. However, it did not include the rationale for awarding the contract on a
sole-source basis in the post-award publication on FedBizOpps.gov.

According to FAR 5.705(b), Publicizing Post-Award, if a contract action is not both fixed-priced
and competitively awarded, the agency is required to publicize the award notice and include in
the description, the rationale for using other than a fixed-priced and/or a competitive approach.
These guidelines further state that when a contract or order is awarded pursuant to a small
business contracting authority (e.g., 8(a) Business Development Program), the rationale for not
using competition must be included in the award notice.

The Contracting Officer stated that he thought the documentation of the rationale was not
required for contracts awarded under the SBA 8(a) Business Development Program, since the
non-competitive approach was authorized by statute, for contracts under $3.5 million. However,
we determined that the Contacting Officer should have included the rationale for awarding the
contract on a sole-source basis in the post-award publication, as required by FAR 5.705(b).

By excluding the rationale for not using competition for this contract, awarded pursuant to
SBA’s 8(a) Business Development Program, the Recovery Act’s requirements for enhanced
transparency in the contracting process to the public was impaired. ARS’ rationale for awarding
the contract as sole source was justified. However, they should have stated the reason for not
using competition on FedBizOpps.gov as required by FAR 5.705(b).

We are not making a new recommendation at this time, because this issue was noted in a
previous contract review. We recommended that ARS’ management comply with FAR part 5.7,
to ensure that Contracting Officers report the rationale for awarding contracts in the post-award
notice on FedBizOpps.gov. This includes contracts awarded under the SBA 8(a) Business
Development Program on a sole source basis.

Finding 4: Discrepancies in Prime Recipient Report

The Prime Recipient information on Recovery.gov relating to the total amount invoiced and
received was not supported by the invoices in the contract file, and it also did not agree with the
information recorded in ARS’ financial system. Specifically, we noted that as of December 31,
2010, the contractor invoiced and was paid $2,236,087, which was reported in ARS’ financial
system. However, $236,087 was reported on Recovery.gov for the same period. The amount of



                                                  5
disbursements reported on Recovery.gov is $2 million less than the amount recorded in the
financial system.

Inaccurate recipient information reporting had been noted in previous contract reviews, 9
resulting in ARS issuing a Policy Guidance Memorandum PGM -10-001, ARRA Recipient Data
Quality Review Guidance, to correct the condition. However, we determined that the guidance
was not fully implemented.

OMB’s Initial Implementing Guidance for the Recovery Act (M-09-10), states that “…given the
high priority placed on the accurate display of information related to the Recovery Act on
Recovery.gov, agencies are responsible for a pre-dissemination review of all information that
will appear on Recovery.gov. All agencies must ensure all reporting related to Recovery Act
funding is complete and accurate and complies with the agency’s Information Quality Act
guidelines.”

Also, USDA’s Procedure for Review of the Recovery Act, Section 1512, Recipient Reported
Information,10 requires Agencies/Departments review recipient data in order to ensure that
information reported on Recovery.gov is accurate.

According to ARS’ newly released PGM -10-001, ARRA Recipient Data Quality Review
Guidance, dated March 31, 2010, Area and Facilities Contracts Branch (FCB) Contract
Specialists are required to follow up on review comments, to ensure that the contractor has made
appropriate changes to correct any errors identified during the review process.

ARS’ Contracting Specialist reviewed the contractor information that was reported on
FederalReporting.gov, and detected the inaccuracy. She notified and requested the contractor to
correct the error. However, the Contract Specialist did not adequately follow up with the
contractor to ensure that the discrepancy was corrected prior to the contractor information being
reported on Recovery.gov.

As a result of the condition noted above, the accuracy of USDA’s Department-wide totals of
Recovery Act financial and activity data for the period ended December 31, 2010 could be
adversely affected.

Recommendation 1

ARS’ management should also ensure that contractors’ data is sufficiently reviewed and, when
errors are detected, there should be adequate follow up with contractors to correct the errors in a
timely manner, in order to enhance the accuracy and consistency of information reporting.




9
  Audit report 02703-01-HQ, and 02703-02-HQ, were both issued on September 7, 2010.
10
  The Office of the Chief Financial Officer issued the USDA’s Procedure for Review of American Recovery and
Reinvestment Act, Section 1512, Recipient Reported Information.


                                                       6
Finding 5: Contractor’s Invoice Was Not Paid Timely

At the completion of audit fieldwork, ARS’ Facilities Division had processed nine contractor
invoices for payment totaling $2,402,300. However, we noted that one invoice, in the amount
of $460,325, was paid 16 days after the due date.

FAR Part 32.904(d)(i) states that, for construction contracts, the due date for progress
payments based on Contracting Officer’s approval of the estimated amount and value of work
or services performed, including payments for reaching milestones in any project, is 14 days
after the designated billing office receives a proper payment request.

The Financial Management Division official stated that the late payment was due to technical
difficulties that ARS experienced in payment processing, when it changed its accounting
system from Foundation Financial Information System (FFIS) to Financial Management
Modernization Initiative (FMMI).

As a result of not paying the vendor in a timely manner, ARS incurred and paid a late
payment interest penalty of $997.37.

We are not making any recommendation since ARS has resolved the technical difficulties it
had in payment processing by successfully changing its accounting system from FFIS to
FMMI. We reviewed subsequent contractor invoices and noted that they were all paid in a
timely manner.




                                              7
Agency’s Response




                      USDA’S



            Agricultural Research Service



         RESPONSE TO AUDIT REPORT
June 13, 2011


SUBJECT:        Management’s Response to Recommendations in Audit 02703-04-HQ –
                Procurement Oversight Audit of Southeast Poultry Research Laboratory,
                Replacement of Critical Mechanical Systems Serving Building 1, 4,
                and 34; Contract Awarded by the Agricultural Research Service to
                Peachtree Mechanical, Inc.

      TO:       Gil H. Harden
                Assistant Inspector General for Audit
                Office of the Inspector General

                Jon M. Holladay
                Acting Chief Financial Officer
                Office of the Chief Financial Officer

   FROM:        Michelle D. Garner, Acting Director /s/
                Financial Management Division
                Acting Chief Financial Officer, REE


The Agricultural Research Service (ARS) provides the following response to audit
Recommendation 1 in Audit 02703-04-HQ Procurement Oversight Audit of Southeast Poultry
Research Laboratory, Replacement of Critical Mechanical Systems Serving Building 1, 4, and
34; Contract Awarded by ARS to Peachtree Mechanical, Inc.

Finding 4: Discrepancies in Prime Recipient Report

Recommendation 1

ARS’ management should also ensure that contractors’ data is sufficiently reviewed and, when
errors are detected, there should be adequate follow-up with contractors to correct the errors in a
timely manner, in order to enhance the accuracy and consistency of information reporting.

Agency Response

ARS will ensure contractors’ data is sufficiently reviewed and adequate follow-up is conducted
to ensure errors are corrected in a timely manner. Errors were identified in this Contractor’s
report and the Contractor was notified by e-mail of the needed correction. As a result of
Gil H. Harden, et. al.                                                                          2

communication breakdowns associated with impassible/hazardous weather conditions in the area
where the Contractor is located, as well as changes in, and schedules of, the assigned Contracting
Officers during the reporting period, the correction was not made in a timely manner.

A checklist (that includes reviewing the award amounts) was provided in Procurement Guidance
Memorandum (PGM) 10-001, ARRA Recipient Reporting Data Quality Review Guidance dated
March 31, 2010, and recommended for use by all Contracting Officers in reviewing Recipient
Reports. Regular reminders regarding the responsibility to conduct reviews of Recipient Reports
are provided to all Contract Specialists prior to and during the Government Review and
Comment period. These reminders emphasize that any errors are to be communicated to the
Contractor within the FederalReporting.gov system and followed up to ensure correction in a
timely manner.

Questions regarding this memorandum can be directed to Linnette Williams, Financial
Management Division on 301-504-1294, or via e-mail at Linnette.Williams@ars.usda.gov.

cc:
R. Herchak, FD
